                                           September 14, 2007




MEMORANDUM TO:               Luis A. Reyes
                             Executive Director for Operations



FROM:                        Stephen D. Dingbaum/RA/
                             Assistant Inspector General for Audits


SUBJECT:                     MEMORANDUM REPORT: AUDIT OF NRC
                             OVERSIGHT OF ITS FEDERALLY FUNDED
                             RESEARCH AND DEVELOPMENT CENTER
                             (OIG-07-A-17)

The Office of the Inspector General (OIG) conducted this audit to determine if the
Nuclear Regulatory Commission (NRC) properly considered all Federal
Acquisition Regulation (FAR) requirements for a Federally Funded Research and
Development Center (FFRDC) review in preparing its renewal justification.
Additionally, OIG examined the adequacy of NRC’s technical oversight and
contract administration of the FFRDC. OIG found that the agency’s renewal
justification, dated June 6, 2007, for continued use of the FFRDC satisfactorily
addressed the FAR criteria. Furthermore, NRC’s oversight and administration of
the FFRDC contract are adequate. Therefore, OIG makes no recommendations.

BACKGROUND

In October 1987, NRC contracted with
Southwest Research Institute (SwRI) to
operate a Federally Funded Research and
Development Center. SwRI (shown right)
established the Center for Nuclear Waste
Regulatory Analyses (the Center) to provide
long-term technical assistance and research
related to NRC's High-Level Waste (HLW)
Program authorized under the Nuclear           An aerial view of the SwRI in San Antonio, TX
Waste Policy Act of 1982, as amended.
The agency sponsored the Center to (1) avoid potential conflict-of-interest
situations caused by hiring contractors who worked on or were competing for
Department of Energy contracts, and (2) establish long-term continuity in
                    Audit of NRC Oversight of Its Federally Funded Research and Development Center



technical assistance and research. The Nuclear Waste Policy Act of 1982, as
amended, assigns responsibility for licensing HLW storage and disposal facilities
to NRC. The Department of Energy, the licensee, is responsible for the
construction and operation of any HLW storage and disposal facility after
receiving a license from the NRC. Due to the nature of this relationship, it was
and is critical that NRC's technical evaluations of the Department of Energy
license application be free of any potential conflict-of-interest. The Department of
Energy announced that it plans to submit a license application for the HLW
repository to NRC by June 30, 2008.

In October 1992, September 1997, and again in September 2002, the agency
extended its contract with the Center for an additional 5 years. The current
contract, with a ceiling of $86.2 million, expires on September 28, 2007. FAR
Section 35.017 sets forth the policy regarding establishment, review, and
termination of FFRDCs and related sponsoring agreements. FAR Section
35.017-4 requires that, prior to extending a contract for an FFRDC, a sponsor
must conduct a comprehensive review of the use of and need for the Center.
The review must:

   1. Examine the continuing need for the Center;
   2. Consider alternative sources;
   3. Assess the Center's efficiency and effectiveness;
   4. Determine if Center operation is cost-effective;
   5. Determine agreement compliance with FAR Section 35.017-1.

If the review determines that the need for the Center still exists and that the
Center has met the agency's needs, NRC may extend the contract for an
additional 5-year period.

RESULTS

NRC’s Renewal Justification Fulfills the Requirements of FAR 35.017-4

The justification for renewal satisfactorily addressed the five FAR criteria set forth
in FAR 35.017-4 and complied with agency requirements for documenting the
review. The results of the review are summarized below.

       Continuing Need for the Center

The first FAR criterion requires the agency to determine if the special technical
needs and mission requirements performed by the Center continue to exist and if
so, at what level. The agency adequately justified its continued need for the
Center.

                                              2
                      Audit of NRC Oversight of Its Federally Funded Research and Development Center




                Special Technical Needs and Mission Requirements

                                                NRC determined that the Center was
                                                still needed to support the agency's
                                                special technical needs and mission.
                                                Prior to establishing the Center, the
                                                agency's contractors had some
                                                association with the Department of
                                                Energy, thus creating a potential
                                                conflict-of-interest situation. The
                                                Center has made it possible to retain
    The tunnel boring machine is shown prior to qualified experts and avoid conflict-
    entering a starter tunnel at Yucca Mountain
                                                of-interest situations. Depending on
                                                program priorities, NRC needs
access to expertise and experience in 26 technical disciplines1 at various times,
and for various durations. Since 1987, the Center's technical support has
provided the continuous and independent expertise needed by NRC. This
expertise will be important for the adjudicatory licensing hearings for Department
of Energy proposed HLW long-term storage and disposal facilities.

                Level of Support Required

The first criterion also requires the agency to assess the resources needed to
support NRC programs at the Center. The agency adequately assessed both the
resources needed to support NRC programs and the Center's ability to provide
those resources.

        Consideration of Alternate Sources

FAR requires that the agency consider alternative sources to meet its technical
needs. The agency adequately addressed this requirement by conducting a
survey of technical staff familiar with the contract to determine if another
contractor could meet the agency's needs. The Office of Federal Procurement
Policy previously said that this method was acceptable. The agency identified
36 alternate contractors, but concluded that the problems originally encountered
in using private-sector contractors and Department of Energy National
Laboratories still existed. Specifically, the main problems continue to be the
inability to provide long-term continuity and conflict-of-interest free technical
assistance and research. Some contractors could not fully support NRC's HLW
program, while others had some association with the Department of Energy.



1
 Technical disciplines include, but are not limited to, geology, geochemistry/physical chemistry,
and seismology.

                                                3
                   Audit of NRC Oversight of Its Federally Funded Research and Development Center



Finally, NRC compared the cost of operating the Center's technical assistance
function to the in-house cost of the same body of work. The analysis, which
covered FYs 2008 through 2010, showed that performing the Center's function
in-house would cost approximately $5.3 million less over the 3-year period. The
renewal justification noted that there are unquantifiable costs such as start-up
costs for staff learning new jobs, contract costs to replace laboratory services
that the Center currently performs at SwRI laboratories, and signing bonuses for
individuals in certain disciplines that are difficult to recruit. The agency
concluded that the time to acquire and develop the required level of expertise
could result in substantial costs and program impacts. Additionally, the analysis
could not capture the cost of phasing out the contract. The agency's
Consideration of Alternative Sources asserts that the need for technical expertise
that is long-term and conflict-of-interest free continues to be the primary
consideration for maintaining the Center.

      Efficiency and Effectiveness of the Center

The third criterion requires that the agency assess the Center's efficiency and
effectiveness in meeting the agency's needs. The agency adequately addressed
this criterion. The Center Review Group (CRG), which consists primarily of
senior NRC managers, oversees the Center's activities and performance. This
group meets semiannually to review and evaluate the Center's performance.
Since renewal of the contract in September 2002, the Center has received
"excellent" ratings for its performance in the "Technical" and "Management and
Staffing" areas.

The CRG's ratings indicated that the Center has demonstrated the ability to
maintain objectivity, independence, quick-response capability, and currency in its
fields of expertise. The CRG determined that the Center's level of support
exceeds normal expectations and that deliverables are of high quality.

      Cost Effective Operation

The fourth criterion requires that the agency assess the adequacy of the Center’s
management in ensuring a cost-effective operation. The CRG's semiannual
evaluation of the Center, discussed in the previous section, addressed this
criterion. The CRG evaluated the Center's performance against the "Cost
Control and Contract Administration" Award-Fee criteria, which include the
adequacy of Center management in ensuring a cost-effective operation. The
overall evaluations resulted in "excellent" to "high-excellent" ratings for the
Center in this area. The Center developed detailed spending plans and provided
information that substantiated certain proposed costs. The CRG rated the
Center's cost control, measured by actual cost expenditures compared to the
spending plan, as "excellent" during this period.



                                             4
                      Audit of NRC Oversight of Its Federally Funded Research and Development Center



        Sponsoring Agreement Compliance with FAR Section 35.017-1

Finally, FAR requires that the agency determine that the guidelines for
establishing the Center continue to be satisfied and that the contract is in
compliance with FAR 35.017-1. NRC concluded that the criteria for establishing
the Center continue to be satisfied because the agency's mission in the HLW
area has not changed. The agency still needs long-term, conflict-of-interest free
technical support. According to Section 35.017 of the FAR, an FFRDC is
established to meet special long-term research or development needs that
cannot be met as effectively by existing in-house or contractor resources.
FFRDCs enable agencies to accomplish tasks that are integral to the mission
and operation of the sponsoring agency through an organization that is required
to conduct its business free from organizational conflicts of interest. NRC
determined that its HLW program requires this type of support.

Additionally, NRC's contract for the operation of the Center contains provisions
required under FAR Section 35.017-1. For example, the contract contains a
statement of the purpose and mission of the Center; provisions for the orderly
termination or non-renewal of the agreement, disposal of assets, and settlement
of liabilities; a provision for the identification of retained earnings and the
development of a plan for their use and disposition; a prohibition against the
Center competing with any non-Center concern in response to a Federal agency
request for proposal for other than the operation of a Center; and a delineation of
procedures to be followed in accepting work from other than a sponsor.

NRC’s Oversight of the Center is Adequate

NRC's technical oversight and administration of the contract are adequate.

        Technical Oversight

NRC staff provided adequate oversight of
the technical areas. Under the terms of
the contract, NRC Performance Monitors
(PM) are the NRC Contracting Officer's
(CO) authorized representatives for the
24 Program Elements2. The contract
stipulates PM oversight responsibilities.
                                                     High-temperature, high-pressure
                                                     corrosion tests are conducted in the
                                                     SwRI-developed pipe flow loop system.


2
 A Program Element is a technical area such as radionuclide release rates and solubility limits,
volcanic disruption of waste package, and quantity and chemistry of water contacting engineered
barriers and wasteforms.

                                                5
                    Audit of NRC Oversight of Its Federally Funded Research and Development Center



During this review, OIG interviewed seven NRC PMs, representing 37 percent of
the total staff assigned to technical areas. The PMs provided a general overview
of the procedures used to monitor assigned technical areas and explained how
they tracked contract deliverables. Some PMs said that the most effective
control was the operations plan that is drafted annually. The plan, which
contains milestones and deliverables, is drafted through a cooperative effort
between NRC PMs and Center staff.

Further, before authorizing payment of an invoice, PMs reviewed monthly Center
program manager progress reports to ensure that resources expended by the
Center were commensurate with work accomplished and in accordance with the
terms of the contract. Some PMs prepared extended comments to support their
evaluations. Additional oversight measures included frequent telephone and e-
mail contact with Center staff, periodic visits to the Center, and semiannual
evaluations of Center performance which PMs provided to the Center Review
Group.

       Contract Administration

Contract administration by the Division of Contracts meets the criteria in NRC
Management Directive 11.1 for invoice payment procedures, and Part 11.5.2,
which assigns specific responsibilities to the Division of Contracts, the Program
Office, and the Division of Financial Services. The contract specialist reviewed
invoices to ensure that (1) costs were within the spending plan for each program
element and (2) invoices were approved in a timely manner so that payment was
made within the required 30 days. OIG reviewed 21 invoices submitted by the
Center for the period October 2004 through September 2006, and found that all
invoices reviewed were processed within the required times. The contract
specialist also received and reviewed the Defense Contract Audit Agency’s
(DCAA) annual report on the results of its audit of contract costs.

The contract specialist, in coordination with HLW program staff and Office of the
General Counsel (OGC), evaluated Center requests for authorization to accept
work from entities other than NRC. Further, the contract specialist received
notification of conflict-of-interest issues related to accepting work for others that
may result in a potential conflict-of-interest situation. The contract specialist,
along with HLW program staff and OGC, performed the agency review and
decision process, and issued letters notifying the Center that the work for others
did or did not represent a potential conflict-of-interest. Other contract
administration measures included maintaining frequent contact with the Center
and ensuring that Center contract files were adequately maintained.




                                              6
                  Audit of NRC Oversight of Its Federally Funded Research and Development Center



CONCLUSION

The NRC's renewal justification adequately addresses the FAR criteria. The
agency also provides effective technical oversight and administration of the
agency's contract with the Center.

AGENCY COMMENTS

At an exit conference on September 6, 2007, NRC officials agreed with the report
contents and had no suggested changes.

SCOPE/CONTRIBUTORS

OIG audited management controls related to NRC oversight of its FFRDC. We
conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Kathleen Stetson, Audit Manager and Robert Woodward, Auditor, conducted this
audit from April 2007 to August 2007. We performed the audit work at NRC
Headquarters in Rockville, Maryland and at the Center for Nuclear Waste
Regulatory Analyses in San Antonio, Texas.

If you have any questions or concerns regarding this report, please contact
Steven Zane, Team Leader at 415-5912 or me at 415-5915.

cc:   V. Ordaz, OEDO
      M. Malloy, OEDO
      P. Tressler, OEDO




                                            7
                   Audit of NRC Oversight of Its Federally Funded Research and Development Center


Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
William M. McCabe, Chief Financial Officer
Margaret M. Doane, Acting, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV




                                             8
